 


                                               Office of Inspector General
                                              Corporation for National and
                                                       Community Service




                   AGREED-UPON PROCEDURES OF
                  CORPORATION FOR NATIONAL AND
                COMMUNITYSERVICE GRANTS AWARDED
                  TO THE CONNECTICUT COMMISSION
                       ON COMMUNITY SERVICE

                         OIG REPORT NUMBER 11-09




                                     Prepared by:

                             Castro & Company, LLC
                         2121 Eisenhower Ave., Suite 606
                              Alexandria, VA 22314


    This report was issued to Corporation management on April 28, 2011. Under the laws
    and regulations governing audit follow-up, the Corporation is to make final
    management decisions on the report’s findings and recommendations no later than
    October 25, 2011 and complete its corrective actions by April 30, 2012. Consequently,
    the reported findings do not necessarily represent the final resolution of the issues
    presented.




 
                                    NATIOONAL&
                                    COMMUNITY
                                    SERVICEU:U:
                           OFFICE OF INSPECTOR GENERAL

                                         April 28, 2011


TO:            John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM :         Stuart Axenfeld    ,~A~.JJ­
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-09, Agreed-Upon Procedures Review of Corporation Grants
               Awarded to the Connecticut Commission on Community Service


Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Castro &
Company, LLC (Castro). The contract required Castro to conduct its review in accordance with
generally accepted government auditing standards.

Castro is responsible for the attached report, dated April 28, 2011, and the conclusions
expressed therein. The agreed-upon procedures, unlike an audit in accordance with U.S.
generally accepted auditing standards, was not intended to enable us to express opinions on
the Commission's Consolidated Schedule of Awards and Claimed and Questioned Costs or the
subgrantees' Schedule of Awards and Claimed and Questioned Costs, conclusions on the
effectiveness of internal controls, or compliance with laws, regulations, and grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by October 25, 2011. Notice of final action is due by April 30, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Rick
Samson, Audit Manager, at (202) 606-9380.

Attachment

cc:      Jacqueline Johnson, Executive Director
         Michael P. Meotti, Commissioner
         Robert Velasco II, Chief Operating Officer, CNCS
         William Anderson, Chief Financial Officer, CNCS
         Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
         Management, CNCS
         Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
         Jack Goldberg, Audit Resolution Specialist, Office of Grant Management, CNCS
         Thomas Castro, CPA, Castro & Company, LLC


                 1201 New York Avenue, NW *           *
                                               Suite 830  DWashington, DC 20525
                     202-606-9390 * Hotline: 800-452-8210* www.cncsoig.gov

                      Senior Corps * AmeriCorps * Learn and Serve America
 


                      OFFICE OF INSPECTOR GENERAL
                      AGREED-UPON PROCEDURES OF
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        GRANTS AWARDED TO THE
              CONNECTICUT COMMISSION ON COMMUNITY SERVICE

                                TABLE OF CONTENTS




Executive Summary……………………………………………………………………………………. 1

Independent Accountant’s Report on Applying Agreed-Upon Procedures………………………. 2

Consolidated Schedule of Award Costs……………………………………………………………... 4

Schedule A – Schedule of Claimed and Questioned Costs – Award No. 06AFHCT001
(AmeriCorps – Formula)……………………………………………………………………………. … 5

Schedule B – Schedule of Claimed and Questioned Costs – Award No. 09RFHCT001
(AmeriCorps – Recovery)…………………………………………………………………….............. 6

Schedule C – Schedule of Claimed and Questioned Costs – Award No. 08PTHCT001
(Program Development And Training)…………………….……….........................……................ 7

Schedule D – Schedule of Internal Control and Compliance Findings…………………………... 8

Objectives and Scope ………………………………………………………….………………….… 22

Background………………………………………………………………………………………….… 23

Appendices

Appendix A – Connecticut Commission on Community Service Response

Appendix B – Corporation for National and Community Service Response




                                           i 
 




                                     Executive Summary


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Castro & Company, LLC, to perform agreed-upon procedures
(AUP) for the costs incurred by the Connecticut Commission on Community Service
(Commission) and its subgrantees from October 1, 2007, through June 30, 2010, under grants
awarded by the Corporation. The results of the AUP include findings of questioned costs,
weaknesses in internal controls, and non-compliance with applicable laws and regulations.

Two subgrantees had inadequate accounting operations to manage Federal funds. One
subgrantee did not account for cost by Federal program. Both subgrantees did not segregate
match from Federal cost, no evidence reconciliations were performed and actual cost were not
compared to budgeted cost. Management oversight of the accounting function appeared
absent.

As a result of applying these procedures, we questioned costs totaling $20,974. A questioned
cost is: (1) an alleged violation of a provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of funds; (2) a finding
that at the time of testing, such costs were not supported by adequate documentation; or (3) a
finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable. Of the total questioned costs, $20,183 is unsupported, and the remaining $791
is related to eligibility. The results of our AUP are summarized in the Consolidated Schedule of
Award Costs.

The procedures included judgmentally selecting samples to test the costs claimed by the
Commission for compliance with its award agreements with the Corporation and other Federal
requirements. Based on this sampling, questioned costs detailed in this report may not
represent total costs that may have been questioned had all expenditures been tested. In
addition, we made no attempt to project such questioned costs to total costs claimed.

Details of the questioned costs, grant awards, non-compliance with grant provisions, and
applicable laws and regulations are presented in the Schedule of Internal Control and
Compliance Findings that follows the results of our AUP, which are summarized below.

       Finding No. 1 – Subgrantee’s Accounting Operations Were Inadequate to Account for
        Federal Funds
       Finding No. 2 – Commission Procedures for Monitoring Subgrantees Were Inadequate
       Finding No. 3 – Improper Support for the Allocation of Payroll and Fringe Benefit Costs
       Finding No. 4 – Member Compliance Requirements Were Not Met for High School
        Diploma Documentation
       Finding No. 5 – Improper Documentation Was Maintained Related to Member
        Fundraising Limitations
       Finding No. 6 – Match Requirements for Grant Budget Were Not Met

                                               1 


 
                                                                               2121 Eisenhower Ave.
                                                                               Alexandria, VA 22314
                                                                               Phone: 703.229.4440
                                                                               Fax: 703.859.7603
                                                                               www.castroco.com

                        INDEPENDENT ACCOUNTANT’S REPORT
                       ON APPLYING AGREED-UPON PROCEDURES

Office of Inspector General
Corporation for National and Community Service

We have performed the procedures, which were agreed to by the OIG, solely to assist the OIG
in evaluating the Commission’s compliance with applicable laws and regulations. A related
purpose was to assess the allowability of costs incurred by the Commission during the AUP
period for the grants listed below. These costs, as presented in the Consolidated Schedule of
Award Costs, are the responsibility of Commission management.


    Grant Number             Grant Type               Grant Period           AUP Period
                             Commission
     07CAHCT001              Administration         1/1/07 to 12/31/09    1/1/08 to 12/31/09
                             Commission
     10CAHCT001              Administration         1/1/10 to 12/31/12     1/1/10 to 6/30/10
                             AmeriCorps -
     06ACHCT001               Competitive           9/1/06 to 8/31/09     10/1/07 to 8/31/09
                             AmeriCorps -
     09ACHCT001               Competitive           9/1/09 to 8/31/12      9/1/09 to 3/31/10
     06AFHCT001         AmeriCorps - Formula        9/1/06 to 8/31/13      4/1/08 to 3/31/10
     08PTHCT001                 PDAT                1/1/08 to 12/31/10     7/1/08 to 6/30/10
     07CDHCT001          Disability Placement       1/1/07 to 12/31/09    1/1/08 to 12/31/09
     10CDHCT001          Disability Placement       1/1/10 to 12/31/12     1/1/10 to 6/30/10
     09RFHCT001         AmeriCorps - Recovery       6/22/09 to 6/21/10    6/22/09 to 5/21/10


This AUP engagement was conducted in accordance with attestation standards established by
the American Institute of Certified Public Accountants and Government Auditing Standards,
issued by the Comptroller General of the United States. The procedures included obtaining an
understanding of the Commission and its policies, procedures, grants, and subgrantees. They
also included reviewing documents at the Commission and its subgrantees related to member
eligibility, claimed costs, matching costs, and compliance with laws, regulations, and the terms
of grant agreements. The sufficiency of these procedures is solely the responsibility of the OIG.




                                                2

                                                 
Consequently, we make no representation regarding the sufficiency of the procedures either
for the purpose for which this report has been requested or for any other purpose.

The results of the procedures are described in the Schedule of Internal Control and
Compliance Findings. As a result of applying the procedures, we questioned costs totaling
$20,974. A questioned cost is: (1) an alleged violation of a provision of law, regulation,
contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds; (2) a finding that at the time of testing, such costs were not supported
by adequate documentation; or (3) a finding that the expenditure of funds for the intended
purpose was unnecessary or unreasonable.

The agreed-upon materiality limits for this engagement include not reporting immaterial
amounts of $150 or less, or insignificant compliance findings. Insignificant compliance
findings include submitting forms/reports seven days late or less, and grant matching
differences of two percent or less.

We were not engaged to and did not conduct an examination, the objective of which would
be the expression of an opinion on the reported information. Accordingly, we do not express
such an opinion. Had we performed additional procedures, other matters might have come
to our attention that would have been reported to you.

This report is intended solely for the information and use of the OIG, the Corporation, and
the Commission, and is not intended to be, and should not be used by, anyone other than
these specified parties.




Castro & Company, LLC
April 28, 2011




                                              3
    


                                          Corporation for National and Community Service
                                          Connecticut Commission on Community Service
                                              Consolidated Schedule of Award Costs


                                                                                                       Costs
                                                                                                      Claimed
                                                                            Total        Total        During
  Grant                          Grant                      AUP             Grant        Costs          AUP       Questioned
 Number                          Type                      Period          Funding      Claimed        Period       Costs      Schedule1
                                                          1/1/08 to
                          Administrative
07CAHCT001                                               12/31/09           $596,088     $575,999     $372,262            $0     N/A
                                                          1/1/10 to
10CAHCT001                Administrative                  6/30/10            250,000      105,742       105,742            0     N/A
                           AmeriCorps                    10/1/07 to
06ACHCT001                  Competitive                    8/31/09          1,817,484    1,684,046      878,096            0     N/A
                          AmeriCorps –                    9/1/09 to
09ACHCT001                  Competitive                   3/31/10            573,660      112,019       112,019            0     N/A
                          AmeriCorps –                    4/1/08 to
06AFHCT001                   Formula                      3/31/10           4,301,742    2,018,860      987,767       14,052      A
                                                          7/1/08 to
08PTHCT001                   PDAT                         6/30/10            265,572      139,143       118,151        1,000      C
                            Disability                    1/1/08 to
07CDHCT001                  Placement                    12/31/09            121,774       77,971        48,721            0     N/A
                            Disability                    1/1/10 to
10CDHCT001                  Placement                     6/30/10             60,125          602          602             0     N/A
                          AmeriCorps –                   6/22/09 to
09RFHCT001                 Recovery Act                   5/21/10            325,090      271,630       271,630        5,922      B

                                                                  Totals   $8,311,535   $4,986,012   $2,894,990      $20,974




                                                               
   1
       Grants 06AFHCT001, 08PTHCT001, and 09RFHCT001 have separate Schedules prepared for them because
       they were the only grants tested that had questioned costs.
                                                                                  4 

                                                                                    
 


                                                                              Schedule A

                    Connecticut Commission on Community Service
                      Schedule of Claimed and Questioned Costs
                    Award No. 06AFHCT001 (AmeriCorps – Formula)


                                      Total Costs       Questioned Costs
                                    Claimed During
            Subgrantee                AUP Period         Federal    Match       Notes

     Our Piece of the Pie (OPP)        $170,373          $4,192        $0          1

    ASPIRA of CT, Inc. (ASPIRA)         171,490           9,860        0        2 and 3

        Other Subgrantees               645,904            0           0         N/A

              Totals                    $987,767        $14,052        $0




NOTES:

    1. We are questioning $4,192 of Federal costs reported by OPP on the March 2010
       Periodic Expense Report (PER), because OPP was unable to provide documentation
       to support the costs. (See Finding No. 1)

    2. We are questioning all of the $9,069 of the Federal Other Direct Costs reported by
       ASPIRA on the March 2010 PER. We were unable to determine if the costs were
       allowable, reasonable or allocable because ASPIRA’s accounting system was not
       accounting for grant costs by program. (See Finding No. 1)

    3. For 1 of the 9 members we sampled, ASPIRA did not have a high school diploma in
       the member file. The member was terminated by ASPIRA after eight weeks for not
       meeting the eligibility requirements. We are questioning the member’s living
       allowance of $791 Federal costs based upon the member’s ineligibility. (See Finding
       No. 4)




                                            5 

                                              
 



                                                                         Schedule B

                   Connecticut Commission on Community Service
                     Schedule of Claimed and Questioned Costs
                   Award No. 09RFHCT001 (AmeriCorps – Recovery)



                                  Total Costs       Questioned Costs
                                Claimed During
         Subgrantee               AUP Period         Federal    Match      Notes

             OPP                   $271,630         $5,922        $0          4

            Totals                  $271,630        $5,922        $0




NOTES:

    4. We are questioning $5,922 of Federal costs reported by OPP on the June 2010
       PER, because it was unable to provide documentation to support the costs. (See
       Finding No. 1)




                                          6 

                                           
 


                                                                         Schedule C


                     Connecticut Commission on Community Service
                       Schedule of Claimed and Questioned Costs
                            Award No. 08PTHCT001 (PDAT)



                                  Total Costs         Questioned Costs
                                Claimed During
         Subgrantee               AUP Period          Federal    Match        Notes

             OPP                     $1,000           $1,000        $0           5

      Other Subgrantees             117,151             0            0         N/A

            Totals                  $118,151          $1,000        $0




NOTES:

    5. We are questioning the entire subgrant amount of $1,000 in Federal costs reported
       on the June 2010 Federal Financial Report (FFR) for the PDAT Grant Number
       08PTHCT001, because OPP was also reimbursed for these expenses by the
       Competitive Grant (Grant Number 06ACHCT001). (See Finding No. 1)




                                           7 

                                             
 


                                                                                Schedule D

                   Connecticut Commission on Community Service
                 Schedule of Internal Control and Compliance Findings


Finding No. 1 – Subgrantee’s Accounting Operations Were Inadequate to Account for
Federal Funds

The subgrantees ASPIRA and OPP were not properly managing their grant funds. During
the period covered by this AUP, their accounting systems were not reconciled to costs
claimed or grant drawdowns. Additionally, the subgrantees were not comparing actual costs
to budget. Specific details of these issues are noted below.

ASPIRA’s Inadequate Accounting Operations

During our fieldwork, we noted that ASPIRA had significant internal control issues related to
the accounting for its funds. ASPIRA’s accounting system was not accounting for any grant
costs by program and, consequently, was not appropriately identifying the grant costs by
Federal and Match expenditures. In addition, we found no evidence reconciliations were
performed, and actual costs were not compared to the budget. These issues resulted in the
following questioned costs and internal control and compliance issues:

       We are questioning all of the $9,069 of the Federal Other Direct Costs reported by
        ASPIRA on the March 2010 PER. We were unable to determine if the costs were
        allowable, reasonable or allocable because ASPIRA’s accounting system was not
        accounting for grant costs by program. The related match cost of $2,553 is not
        questioned because ASPIRA has until the end of the budget period to meet the
        match requirement. The budget period ends August 31, 2013.
    `
       As a result of not performing reconciliations, we noted significant variances between
        the amounts reported by ASPIRA to the Corporation through FFRs and the amounts
        reported to the Commission through PERs. For example, the amounts for “Other
        Program Operating Costs”, and “Travel to CNCS Sponsored Meetings,” listed on the
        March 2010 PER, were not included in the March 2010 PER totals or the March
        FFR.

       We found no evidence of management oversight of the accounting function,
        including reviews of reconciliations or budgets.




                                              8 

                                               
 


ASPIRA’s interim executive director stated that there has been recent turnover in the
executive director and bookkeeper positions. Current ASPIRA personnel were unable to
determine why the functionality in the accounting system did not account for grant costs by
program, allocate grant costs by Federal vs. Match, or perform reconciliations. The inability
to accurately record grant costs increases the probability of claiming unallowable costs and
could negatively impact program performance.

OPP’s Inadequate Accounting Operations

We noted that OPP had significant internal control issues related to accounting for its funds
because it was not utilizing its accounting system’s capability to separately account for
Federal and Match costs. In addition, we found no evidence that reconciliations were
performed. As a result, we noted significant variances between the costs OPP reported to
the Commission for the FFR, the amounts reported on PERs, and the general ledger. These
issues resulted in the following questioned costs and internal control issues:

       We are questioning $4,192 of Federal costs reported on the March 2010 PER for
        Grant No. 06AFHCT001, and $5,922 of Federal costs reported on the June 2010
        PER for Grant No. 09RFHCT001 because OPP was unable to identify the
        transactions and source documents to support these costs.

       We are questioning the entire grant amount of $1,000 of Federal costs reported on
        the June 2010 FFR for the PDAT Grant (Grant No. 08PTHCT001), because the
        expenses were incorrectly recorded in the accounting system to another grant. OPP
        was reimbursed by the Commission for these expenses both by the PDAT Grant and
        the Competitive Grant (Grant No. 06ACHCT001).

       We found no evidence of management oversight of the accounting function,
        including review of reconciliations or budgets.

According to OPP’s fiscal manager, there was improper supervision over the OPP
accountant during the period covered by the AUP. OPP personnel were unable to
determine why the functionality in the accounting system for allocating grant costs by
Federal vs. Match was not utilized and the reason reconciliations were not performed.
Additionally, the OPP accountant was manually (in handwritten form) tracking amounts
reported to the Commission instead of tracking them on Excel spreadsheets, increasing the
chance of mathematical errors.

Criteria

45 Code of Federal Regulations (C.F.R.) Subpart C, Post-Award Requirements, § 2543.21
Standards for financial management systems, states, in part:

                (b) Recipients' financial management systems shall provide for the
        following:

            (1) Accurate, current and complete disclosure of the financial results of
                each federally-sponsored project or program in accordance with the
                reporting requirements set forth in §2543.51.


                                              9 

                                                
                                                                                            


              *      *       *

          (2) Records that identify adequately the source and application of funds
              for federally-sponsored activities. These records shall contain
              information pertaining to Federal awards, authorizations, obligations,
              unobligated balances, assets, outlays, income and interest.
          (3) Effective control over and accountability for all funds, property and
              other assets. Recipients shall adequately safeguard all such assets
              and assure they are used solely for authorized purposes.
          (4) Comparison of outlays with budget amounts for each award.
              Whenever appropriate, financial information should be related to
              performance and unit cost data.

Office of Management and Budget (OMB) Circular No. A-122, Cost Principles for Non-Profit
Organizations, Attachment A. Basic Considerations, states:

       2. Factors affecting allowability of costs. To be allowable under an award,
          costs must meet the following general criteria:

              a. Be reasonable for the performance of the award and be allocable
                 thereto under these principles.
              b. Conform to any limitations or exclusions set forth in these
                 principles or in the award as to types or amount of cost items.
              c. Be consistent with policies and procedures that apply uniformly
                 to both federally-financed and other activities of the organization.
              d. Be accorded consistent treatment.
              e. Be determined in accordance with generally accepted
                 accounting principles (GAAP).
              g. Be adequately documented.

Recommendations

We recommend that the Corporation:

       1.a. Resolve the unsupported questioned costs totaling $20,183 and recover
            disallowed costs.

       1.b. Ensure that all Commission subgrantees utilize their accounting system’s
            capability to account for grant costs by program and for segregating Federal
            and Match costs claimed.

       1.c. Ensure that all Commission subgrantees maintain adequate support for
            Federal costs claimed and match costs expended.

       1.d. Ensure that all Commission subgrantees perform reconciliations of their
            general ledgers to the PERs and drawdowns.

       1.e. Ensure that all Commission subgrantees perform management reviews of
            reconciliations.


                                             10

                                               
                                                                                           


      1.f.   Ensure that all Commission subgrantees perform management reviews of
             actual costs to budgeted cost.


Commission’s Response
The Commission did not respond directly to the recommendations in the draft report, but
stated that the recommendations have been taken under advisement. The Commission did
expand on the causes, discussed above, of the finding and stated that the Board of
Directors decided to close ASPIRA of Connecticut, as of March 14, 2011. The Commission
has begun to close out the AmeriCorps program and remedy the questioned Federal costs.
The Commission also stated that OPP will correct the questioned Federal costs.

Auditor’s Comments
The Corporation should ensure that the Commission monitors the subgrantees for the
financial management recommendations.




                                          11

                                            
 


Finding No. 2 – Commission Procedures for Monitoring Subgrantees Were Inadequate

The Commission’s procedures for monitoring subgrantee’s operations did not adequately
address the review of new subgrantees’ accounting systems, and determine whether they
are properly accounting for grant costs by program and identifying grant costs by Federal
and Match. A new subgrantee is defined by the Corporation as one that did not receive
AmeriCorps funds during the 12 months prior to the current program year.

The Commission reviewed subgrantees’ applications to ensure the descriptions of their
financial management systems were adequate. After subgrantees were selected and were
receiving grant funds, the Commission performed site visits and hired an independent public
accountant (IPA) to reconcile the subgrantee’s PERs to its general ledger and supporting
documentation.

The Commission’s executive director stated that, during the past year, the subgrantees were
either new to the grant (ASPIRA) or new accounting personnel were responsible for the
accounting (OPP). The executive director further stated that some of the subgrantees’ site
visits were not conducted at the end of program year 2010 due to the upcoming OIG AUP
engagement. The executive director believes that these accounting system issues would
have been identified by its IPA if the review had been performed.

The inadequate financial management systems resulted in questioned Federal grant costs
in Finding No. 1. Earlier Commission monitoring of accounting systems would have
identified deficiencies prior to the end of the program year. Also, based on our review of the
AUP program used by the IPAs, we believe the program needs to improve the review of
accounting systems.

Criteria

OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations,
Subpart D--Federal Agencies and Pass-Through Entities, § .400 Responsibilities, states:

       (d) Pass-through entity responsibilities. A pass-through entity shall perform
       the following for the Federal awards it makes:

               …(2) Advise subrecipients of requirements imposed on them by
               Federal laws, regulations, and the provisions of contracts or grant
               agreements as well as any supplemental requirements imposed by
               the pass-through entity.
               (3) Monitor the activities of subrecipients as necessary to ensure
               that Federal awards are used for authorized purposes in compliance
               with laws, regulations, and the provisions of contracts or grant
               agreements and that performance goals are achieved.

    45 C.F.R. § 2543.51 - Monitoring and reporting program performance, states:

       (a) Recipients are responsible for managing and monitoring each project,
           program, subaward, function or activity supported by the award.


                                             12 

                                                
                                                                                                   


Recommendations

We recommend that the Corporation:

       2.a.    Ensure that the Commission enhances its subgrantee monitoring procedures
               to perform an interim review for new subgrantees at the completion of the first
               FFR, instead of waiting until the end of the program year.

       2.b.    Ensure that the Commission enhances its subgrantee monitoring procedures
               to require that all subgrantees report to the Commission significant
               operational changes during the program year, such as turnover of key
               personnel, including accounting personnel. Additionally, when subgrantees
               report these significant operational changes, the Commission should
               determine the risk to the AmeriCorps program and whether an interim review
               of the subgrantee should be performed.

       2.c.    Ensure that the Commission engagements performed by its IPA verify that
               subgrantees’ accounting systems are properly reconciled, account for grant
               costs by program, and identify grant costs by Federal and Match.


Commission’s Response
The Commission did not respond directly to the recommendations in the draft report, but
stated that the recommendations have been taken under advisement. The Commission
provided two criteria it has added to its risk-based monitoring system: performing a site visit
for all new AmeriCorps subgrantees within the first six months of operation and within six
months of notification of a change in the subgrantee’s financial management staff.

Auditor’s Comments
We agree with the criteria the Commission has added to its risk-based monitoring system.
The Corporation should ensure that the Commission has implemented these criteria and
that it addresses the remaining recommendations.




                                              13

                                                
 


Finding No. 3 – Improper Support for the Allocation of Payroll and Fringe Benefit
Costs

ASPIRA was unable to support the allocation of payroll and fringe benefits costs reported on
the Corporation grant because the ASPIRA’s staff timesheets did not report activity on
different grants. However, we were able to perform alternative procedures and are satisfied
that the staff worked on the Corporation grant. Therefore, we are not questioning the payroll
and fringe benefits costs. The ASPIRA Project Director and two Assistant Project Directors
were charging the Corporation grant. The Project Director was full-time, and the two
Assistant Project Directors were part-time, though the majority of their time was charged to
the Corporation grant.

Criteria

OMB Circular No. A-122, Cost Principles for Non-Profit Organizations, Attachment B.
Selected Items of Cost, Section 8 - Compensation for Personal Services, Paragraph m.
Support of Salaries and Wages, states:

            (2) Reports reflecting the distribution of activity of each employee must be
                maintained for all staff members (professionals and nonprofessionals) whose
                compensation is charged, in whole or in part, directly to awards. In addition,
                in order to support the allocation of indirect costs, such reports must also be
                maintained for other employees whose work involves two or more functions
                or activities if a distribution of their compensation between such functions or
                activities is needed in the determination of the organization's indirect cost
                rate(s) (e.g., an employee engaged part-time in indirect cost activities and
                part-time in a direct function). Reports maintained by non-profit organizations
                to satisfy these requirements must meet the following standards:

                (a) The reports must reflect an after-the-fact determination of the actual
                activity of each employee. Budget estimates (i.e., estimates determined
                before the services are performed) do not qualify as support for charges to
                awards.
                (b) Each report must account for the total activity for which employees are
                compensated and which is required in fulfillment of their obligations to the
                organization.

Recommendation

We recommend that the Corporation:

       3.       Ensure that all Commission subgrantees’ staff timesheets are activity based
                to clearly distinguish AmeriCorps grant activity from other grant activity.




                                              14 

                                                 
                                                                                               


Commission’s Response

The Commission did not respond directly to the recommendations in the draft report, but
stated that the recommendations have been taken under advisement. The Commission
also stated that the Board of Directors decided to close ASPIRA of Connecticut, as of March
14, 2011. The Commission has begun to close out the AmeriCorps program.


Auditor’s Comments

The Corporation should ensure that the Commission monitors the subgrantees for activity
based timesheets.




                                            15

                                              
 


Finding No. 4 – Member Compliance Requirements Were Not Met for High School
Diploma Documentation


For 1 of the 9 members sampled, ASPIRA did not have a high school diploma in the
member file. The member was terminated by ASPIRA after eight weeks because she did
not meet the eligibility requirements. We are questioning the member’s living allowance of
$791 of Federal costs based upon ineligibility.

Criteria

45 C.F.R. § 2522.200 - What are the eligibility requirements for an AmeriCorps participant?,
states:

       (a) Eligibility. An AmeriCorps participant must . . . (2)(i) Have a high school
       diploma or its equivalent; or (ii) Not have dropped out of elementary or
       secondary school to enroll as an AmeriCorps participant and must agree to
       obtain a high school diploma or its equivalent prior to using the education
       award; or (iii) Obtain a waiver from the Corporation of the requirements in
       paragraphs (a)(2)(i) and (a)(2)(ii) of this section based on an independent
       evaluation secured by the program demonstrating that the individual is not
       capable of obtaining a high school diploma or its equivalent; or (iv) Be
       enrolled in an institution of higher education on an ability to benefit basis
       and be considered eligible for funds under section 484 of the Higher
       Education Act of 1965 (20 U.S.C. 1091) . . .

       (b) Written declaration regarding high school diploma sufficient for
       enrollment. For purposes of enrollment, if an individual provides a written
       declaration under penalty of law that he or she meets the requirements in
       paragraph (a) of this section relating to high school education, a program
       need not obtain additional documentation of that fact.

During the AUP period, ASPIRA did not ensure that it received all required member
documentation prior to a member beginning service. As a result, ASPIRA was unable to
ensure that potential members were eligible to participate in the program in accordance with
the AmeriCorps provisions.

Recommendations

We recommend that the Corporation:

       4.a. Resolve the questioned costs related to eligibility totaling $791 and recover
            disallowed costs.

       4.b. Ensure that Commission subgrantees obtain                 all   required     member
            documentation prior to a member beginning service.



                                              16 

                                                
 


Commission’s Response

The Commission did not respond directly to the recommendations in the draft report, but
stated that the recommendations have been taken under advisement. The Commission
also stated that the Board of Directors decided to close ASPIRA of Connecticut, as of March
14, 2011. The Commission has begun to close out the AmeriCorps program and remedy
the questioned Federal costs.


Auditor’s Comments

The Corporation should ensure that the Commission monitors the subgrantees for
compliance with the high school diploma requirements.




                                            17 

                                              
 


Finding No. 5 – Improper Documentation Was Maintained Related to Member
Fundraising Limitations


For 6 of the 9 members sampled, ASPIRA was unable to provide supporting documentation
to demonstrate that those members did not exceed the 10 percent fundraising limitation
during the AUP period.

Additionally, we interviewed five members, all of whom said they had participated in
fundraising activities, such as raffles and bake sales, related to the AmeriCorps grant.
However, the majority of their timesheets had either zero or very minimal hours recorded for
fundraising.

Criteria

45 C.F.R. § 2520.45 - How much time may an AmeriCorps member spend
fundraising?, states:

       An AmeriCorps member may spend no more than ten percent of his or her
       originally agreed-upon term of service, as reflected in the member activities,
       as described in Sec. 2520.40.

ASPIRA was not properly monitoring member hours to ensure they did not exceed the
fundraising limitation. Additionally, there was improper training of members and supervisors
to ensure that all fundraising activities were accurately reported on member timesheets.

Without tracking the members’ fundraising hours on an ongoing basis, the subgrantee may
exceed the 10 percent fundraising limitation included in the AmeriCorps provisions.

Recommendations

We recommend that the Corporation:

       5.a. Ensure that the Commission requires its’ subgrantees to monitor member
            fundraising hours on an ongoing basis to ensure the 10 percent limitation is not
            exceeded.

       5.b. Ensure that the Commission requires its’ subgrantees to provide additional
            training to members and supervisors to ensure that all fundraising hours are
            properly captured on member timesheets.




                                             18 

                                               
                                                                                               


Commission’s Response

The Commission did not respond directly to the recommendations in the draft report, but
stated that the recommendations have been taken under advisement. The Commission
also stated that the Board of Directors decided to close ASPIRA of Connecticut, as of March
14, 2011. The Commission has begun to close out the AmeriCorps program.


Auditor’s Comments

The Corporation should ensure that the Commission monitors the subgrantees for
compliance with the fundraising requirements.




                                            19

                                              
 


Finding No. 6 – Match Requirements for Grant Budget Were Not Met


The match percentages of program operating costs claimed as Grantee Share on the FFR
revealed that the Subgrantee did not meet the grant budget match requirement for Formula
Grant No. 06AFHCT001 through March 31, 2010.

Subgrantee Women & Families did not meet its budget grant requirement of 38 percent. Its
actual match was 34 percent, resulting in a shortage of $12,583 in budgeted match costs.
Women & Families did meet its regulatory match requirement of 34 percent.

Meeting the budgeted match requirement is a measure of program performance. In
addition, applications with higher budgeted match could be selected for awards over
applicants with lower budgeted match. An overstated budgeted match could result in an
award being made that could have gone to better-qualified applicant.

Criteria

45 C.F.R. § 2521.40 - What are the matching requirements?, states:

       If you are subject to matching requirements under §2521.35, you must
       adhere to the following:

           *    *     *

           (C) Budgeted match: To the extent that the match in your approved
           budget exceeds your required match levels under paragraph (a) or (b) of
           this section, any failure to provide the amount above your regulatory
           match but below your budgeted match will be considered as a measure
           of past performance in subsequent grant competitions.

The Commission’s executive director stated that its monitoring procedures include reviewing
the match for each subgrantee. Further, the executive director stated that, if the subgrantee
doesn’t meet its budget match requirement, the Commission will ensure that the program is
not being significantly affected by the reduced match funds required. The executive director
noted that Women and Families’ program was not adversely affected by the shortage of the
budget match requirement.


Recommendations

We recommend that the Corporation:

       6.a. Ensure the Commission, during its evaluations for awards, considers the
            applicants’ historical ability to meet budgeted match requirements.

       6.b. Ensure the Commission, during its evaluations for awards, considers the
            applicants’ ability to meet the proposed budgeted match.


                                             20 

                                               
                                                                                                


Commission’s Response

The Commission did not respond directly to the recommendations in the draft report, but
stated that the recommendations have been taken under advisement. The Commission
stated that, given the numerous variables that can affect a program’s ability to realize the
budgeted match, the Commission monitors program progress and provides technical
assistance where needed or applicable.


Auditor’s Comments

The Corporation should ensure that the Commission                 implements    the   report
recommendations on evaluating award applications.




                                            21

                                              
 


                                   Objectives and Scope

The objectives of the AUP engagement were to determine whether the Commission
expended Corporation-funded Federal assistance in accordance with applicable
requirements, and to report resulting findings on questioned costs, internal controls, and
compliance with laws and regulations.

Castro & Company, LLC, performed the procedures in accordance with attestation
standards established by the American Institute of Certified Public Accountants and
Government Auditing Standards, issued by the Comptroller General of the United States.
The procedures included obtaining an understanding of the Commission and its policies,
procedures, grants, and subgrantees. They also included reviewing documents at the
Commission offices and its subgrantees related to member eligibility, claimed costs,
matching costs, and compliance with laws, regulations, and the terms of grant agreements.

During the period covered by our procedures, the Commission received approximately $8.3
million under nine Corporation grant awards and distributed most of the funds to
subgrantees. Approximately $5 million of the amounts awarded were claimed on FFRs. We
conducted our fieldwork at the Commission and two of its subgrantees that we selected,
OPP and ASPIRA, from November 29, 2010 to December 10, 2010. We selected the
subgrantees for testing primarily based on:

(1) The amount of grant dollars;

(2) The number of AmeriCorps members; and

(3) Associated risks identified during Commission site visits.




                                              22 

                                                
                                                                                                      


                                          Background

The Corporation, under the authority of the National Community Service Trust Act, as
amended, awards grants and cooperative agreements to State commissions, nonprofit
entities, and tribes and territories to assist in the creation of full- and part-time national and
community service programs. Through these grantees, AmeriCorps members perform
service to meet educational, human, environmental, and public safety needs. In return,
eligible members may receive a living allowance and post-service education benefits.

The Commission was established to administer Corporation programs in Connecticut in
partnership with the Connecticut Department of Higher Education. It consists of between 15
and 25 commissioners, appointed by the governor to serve three-year terms. The mission
of the Commission is to foster service through volunteerism by:

       Securing and granting funds
       Selecting, training and monitoring high-quality grantees
       Recognizing the success and effectiveness of volunteer programs and activities
       Developing and sharing resources
       Creating networks among volunteer organizations
       Serving as a bridge between the public and nonprofit sectors
       Supporting and publicly recognizing community service on college campuses


                                       Exit Conference

We provided a draft report for discussion with the Corporation, the Commission, and
applicable subgrantees at an exit teleconference held on February 23, 2011. The draft
report was issued for comment to the Corporation and Commission on March 4, 2011.

Responses from the Commission were summarized in the appropriate sections of the final
report. Responses from the Commission and the Corporation are included in their entirety
in Appendices A and B, respectively.




                                               23

                                                 
 


                                                  APPENDIX A


    CONNECTICUT COMMISSION ON COMMUNITY SERVICE
             RESPONSE TO DRAFT REPORT




                        24 

                          
~rve    .
 Connecticut
    April 1, 2011

    Stuart Axenfeld, Assistant Inspector General for Audit
    Corporation for National and Community Service
    Office of Inspector General
    1201 New York Avenue, NW
    Suite 830
    Washington, DC 20525

    Dear Mr. Axenfeld:

    Enclosed please find the response to the Draft Audit Report for the costs incurred by the
    Connecticut Commission on Community Service and its subgrantees from October I,
    2007 through June 30, 2010, under grants awarded by the Corporation.

    Finding No.1: Subgrantee's Accounting Operations Were Inadequate to Account
    for Federal Funds
           ASPJRA 's Inadequate Accounting Operations
           ASPIRA of Connecticut, the legal applicant of ASPIRA Corps, has experienced
           significant staff transition enacted by its Board of Directors in the last twelve
           months. These changes compromised the immediate internal controls of the
           organization, which in turn made vulnerable all managerial and financial
           decisions during that time. ASPIRA of COImecticut has a new Board Chair and
           an entirely new Board of Directors membership. In addition, the board released
           the Executive Director and the bookkeeper from employment in November 20 10,
           without adequate staff capacity in place to continue management and fiscal
           operations. As a result, reconciling financial records to support past financial
           transactions with inexperienced staff and board members was not successful.

           Subsequently, the Board of Directors decided to close ASPIRA of Connecticut, as
           of March 14, 20 II. The Commission has begun procedures to close out the
           AmeriCorps program and remedy the questioned Federal costs identified in the
           Draft Audit Report.

           OPF's Inadequate Account Operations
           Our Piece of the Pie, Inc. (OPP) has changed fiscal staff in the last twelve months.
           While OPP had established financial management systems; they were not being
           utilized by the former fmancial manager. The new financial manager is closely
           following all internal controls and has corrected any previous oversight
           challenges. OPP will correct the questioned Federal costs as identified in the
           Draft Audit Report.


                         Connecticut Commission on Community Service
                            Connecticut Department of Higher Education
                            61 Woodland Street* Hartford, CT 061 05-2326
                (860) 947- 1827 phone  * (860) 947-1310 fax  *  www.serveCT.ctdhe.org
Finding No.2 : Commission Procedures for Monitoring Subgrantees Were
Inadequate
The Commission has added two criteria items to its risk-based monitoring system:
   I) All new AmeriCorps subgrantees will receive a fiscal monitoring site visit within
      the first six (6) months of operation. This monitoring visit wil l review the
      financial management systems that are in place to ensure accuracy, efficiency and
      reliability.
   2) Notification of change in staff at the financial management level will warrant a
      fiscal monitoring site visit within the first six (6) months of the new staffs start
      date. This monitoring visit will review the financial management systems to
      ensure continuance, accuracy, efficiency and reliability.

Finding No.3 : Improper Support for the Allocation of Payroll and Fringe Benefit
Costs
ASPIRA ofCOlmecticut closed as of March 14, 2011. The Commission has begun
procedures to close out the AmeriCorps program.

Finding No.4: Member Compliance Requirements Were Not Met for High School
Diploma Documentation
ASPIRA of Connecticut closed as of March 14, 2011. The Commission has begun
procedures to close out the AmeriCorps program and remedy the questioned Federal
costs identified in the Draft Audit Report.

Finding No.5: Improper Documentation Was Maintained Related to Member
Fundraising Limitations
ASPIRA of Connecticut closed as of March 14,2011. The Conmlission has begun
procedures to close out the AmeriCorps program.

Finding No.6: Match Requirements for Grant Budget Were Not Met
By not meeting the budgeted match (which is a proposed or targeted percentage), the
Commission does not feel this is a compliance issue, but rather a performance matter.
The Commission reviews all AmeriCorps sub grantees match status at the end of each
program year. The program' s actual match is tracked against the required match and
satisfaction of the required match is noted. Meeting budgeted match is considered when
evaluating for continued funding. Given the numerous variables that can affect a
program 's ability to realize the budgeted match, the Commission monitors the program's
progress and provides technical assistance where needed or when applicable.

Recommendations made within the Draft Audit Report have been taken under
advisement as the Commission continues to use due diligence in all financial and
programmatic areas and recording keeping.

Si cerely,

   ~rl//h£$
J cquefn:';;'   J~hnSOl
                                                               


                                                 APPENDIX B



    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              RESPONSE TO DRAFT REPORT




                          25

                            
                               NATIONAL &
                               COMMUNITY
                               SERVICE ..........

To:

From:                                                                  y.anagement
                                                 '-'I!.JO...............




Date:

Subject:       Response to OIG Draft of Agreed-Upon Procedures of Corporation Grants
               Awarded to the Connecticut Commission on Community Service


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to the Connecticut Commission on Community Service
(the Commission). We will work with the Commission to ~nsure its corrective action
plan adequately addresses the findings. We will respond with our management decision
after we receive the final report and the auditor's working papers and have reviewed the
Commission's corrective action plan.

Cc:     William Anderson, Chief Financial Officer
        John Gomperts, Director of AmeriCorps
        Wilsie Minor, Acting General Counsel
